COCKLE

2311 Douglas Street Léwal Brief E-Mail Address:
egal Briefs
Omaha, Nebraska 68102-1214 & Est-1925 contact@cocklelegalbriefs.com
1-800-225-6964 Web site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 20-1735

ANGEL MANUEL ORTIZ-DIAZ, et al.
Petitioners,
ve.
UNITED STATES, et al.
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 19th day of July, 2021. send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE THE HON. RAFAEL
HERNANDEZ-MONTANEZ. SPEAKER OF THE PUERTO RICO HOUSE OF REPRESENTATIVES, IN SUPPORT OF
THE PETITION in the above entitled case. All parties required to be served have been served by Priority Mail. Packages
were plainly addressed to the following:

SEE ATTACHED

To be filed for:

EMIL RODRIGUEZ ESCUDERO

JORGE MARTINEZ LUCIANO
Counsel of Record

ML & RE LAW FIRM

Cobian’s Plaza—Suite 404

1607 Ponce de Leén

San Juan, P.R. 00909

emil@mlrelaw.com

jorge@mirelaw.com

(787) 999-2972

Subscribed and sworn to before me this 19th day of July, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

ja GENERAL MOTARY-State of Nebraska AZ 2 5 ),
A RENEE J. GOSS ( ded caer .
mite

My Comm, Exp. September 5, 2023

 

 

Notary Public Affiant 41226
Attorneys for Petitioners

John Michael Connolly
Counsel of Record
Consovoy McCarthy PLLC
1600 Wilson Blvd
Suite 700
Arlington, VA 22209
mike@consovoymecarthy.com
703-243-9423
Party name: Angel Manuel Ortiz-Diaz, et al.

Attorneys for Respondents

Elizabeth B. Prelogar

Counsel of Record
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDO]J.gov
202-514-2217
Party name: United States, et al.
